No.

11-16

In t()t Supreme Court of tlje ®mte& States!
Lincoln Rymer, Petitioner
v.
UT at Martin, et al., Respondents

CERTIFICATE OF COMPLIANCE

I, Lincoln Rymer, do hereby swear and affirm under 28 U.S.C. §1746 that the
Supplemental Brief in the above titled case contains 859 words, excluding the parts
exempted by Rule 33.1(d).

September 26, 2019

X
Lincoln Rymer
154 Fowler Cemetery Lane
Hurricane Mills, TN 37078
931-296-3001

154 Fowler Cemetery Lane
Hurricane Mills, TN 37078
931-296-3001
Clerk of the Court
Supreme Court of the United States
1 First Street, N. E.
Washington, DC 20543
September 26, 2019
RE: Case 19-96 Petition Hold Request
Dear Clerk:
Recently there has been nationwide media coverage on the novel type of free speech
retaliation claims pressed in my case. Tennessee Senator Kerry Roberts has expressed outrage
over the “indoctrination and intimidation” of college students who voice opinions not shared by
their professors.
The Supreme Court of Rhode Island has recently allowed a case similar to mine to
proceed. William Felkner v. Rhode Island College,____A.3d._____, 16-17 (R.I. 2019). Felkner
is challenging his professors’ claim to qualified immunity. As discussed in my Supplemental
Brief, qualified immunity is an issue in my case.
Please hold my petition in abeyance until a lawyer files a cert petition in a similar case on
similar issues. My case may be the first to come before this Court on this newly reported
collegiate epidemic. Because many colleges claim to be “arms of the state,” sovereign immunity
and qualified immunity will be recurring issues in other cases. It might be prudent to hold my
petition until a trained lawyer presents similar challenges to these recurring issues.
Sincerely,

Lincoln Rymer
cc: Michael Fitzgerald, counsel for respondents

